Audit of the Office of Acquisitions’
Procurement and Contract
Management Functions




                              September 25, 2009
                                  Report No. 471
OA Procurement and Contract Management Functions   September 25, 2009
Report No. 471
                                            i
Audit of the Office of Acquisitions’
Procurement and Contract Management
Functions

                          Executive Summary
Regis & Associates, PC, under contract with the U.S. Securities and Exchange
Commission (SEC or Commission), Office of Inspector General (OIG), performed
an audit of the Commission’s Office of Administrative Services (OAS), Office of
Acquisitions’ (OA) procurement and contract management processes and
functions, covering FY 2006 to FY 2008. This report provides the results of our
audit. The audit identified significant risk areas, which if not addressed, could
hinder OA from having an effective and efficient procurement and contracting
operation. Specifically, the audit found that OAS and OA:

   1) Do not maintain accurate records and data on their procurement and
      contracting activities;
   2) Report inaccurate data in the Federal Procurement Data System;
   3) Do not adequately oversee and monitor Regional Offices’ contract
      activities and training of personnel;
   4) Do not have an adequate migration plan for the new automated
      procurement system, PRISM;
   5) Are not adequately supporting payments on time-and-materials and
      labor-hour contracts; and
   6) Have not been conducting contract close-out procedures in compliance
      with SEC and FAR regulations.

These deficiencies resulted from: 1) The absence of comprehensive data that is
needed to manage operations and report on performance; 2) Inconsistent
operational processes; 3) Performance of contractual functions by inadequately
trained personnel at the Regional Offices; 4) Noncompliance with FAR and SEC
procurement and contracting policies; and 5) The lack of adequate policies and
procedures governing the management of OA’s procurement and contracting
function.

OAS and OA have proactively taken steps and developed plans to address some
of the noncompliance issues and deficiencies we identified during our audit.




OA Procurement and Contract Functions                         September 25, 2009
Report No. 471

                                        ii
TABLE OF CONTENTS


EXECUTIVE SUMMARY.........................................................................................ii

TABLE OF CONTENTS .......................................................................................... 1

BACKGROUND AND OBJECTIVES .................................................................... 3

        Background ....................................................................................................... 3
        Objectives .......................................................................................................... 5

FINDINGS AND RECOMMENDATIONS............................................................. 7

        Finding 1: OA Does Not Maintain Accurate Records and Data on its
        Procurement and Contracting Activities ......................................................... 7

        Recommendation 1 to 3: .................................................................................. 9

        Finding 2: Contracting Data Reported in the Federal Procurement
        Data System is not Accurate ............................................................................ 9
        Recommendation 4: ....................................................................................... 10

        Finding 3: OA Does Not Adequately Oversee and Monitor Regional
        Offices’ Contract Activities and Training of Personnel ................................ 11
        Recommendation 5 to 6: ................................................................................. 14

        Finding 4: The PRISM Data Migration Plan is Not Adequate ................... 15
        Recommendation 7: ........................................................................................ 17

        Finding 5: Payments on Time-and-Materials and Labor-Hour
        Contracts are not Adequately Supported ...................................................... 18
        Recommendation 8: ........................................................................................ 19

        Finding 6: Contract Close-out Procedures are not Conducted in
        Compliance with SEC and FAR Regulations ................................................ 20
        Recommendation 9 ........................................................................................ 22
        Recommendation 10: ..................................................................................... 23




OA Procurement and Contract Management Functions                                          September 25, 2009
Report No. 471
                                                     Page 1
APPENDICES

       Appendix- I- Acronyms and Abbreviations.................................................... 24
       Appendix- II- Scope and Methodology ........................................................... 25
       Appendix- III- Criteria ................................................................................... 28
       Appendix- IV- List of Recommendations ....................................................... 30
       Appendix- V- Management Comments.......................................................... 32
       Appendix- VI- OIG’s Response to Management’s Comments ....................... 36




OA Procurement and Contract Management Functions                                   September 25, 2009
Report No. 471
                                                Page 2
              Background and Objectives

Background
The Office of Administrative Services (OAS), Office of Acquisitions (OA) is
responsible for the U.S. Securities and Exchange Commission (SEC or
Commission) procurement and contract activities and processes, which are
governed by the Federal Acquisition Regulation (FAR). OA’s purview
includes oversight over the receipt of requisitions from customers, identifying
appropriate vendors, making reasonable pricing determinations, and
awarding and administering contracts.

OA’s procurement and contracting function is conducted manually, and the
office is in the process of fully automating this function. The office has three
contracting branches that are overseen by three separate contracting officers.
The contracting officers specialize in three different areas as follows:

       (1) OAS, Office of Human Resources (OHR) and select Regional Office
           contracts;
       (2) Information technology contracts; and
       (3) The Division of Enforcement (Enforcement), including the
           Regional Offices, and all other headquarters Offices and Divisions
           contracts.

The contracting officers’ functions are independent of each other. The
manner in which the contracting officers manually compile and track
contracting data for the areas that they oversee differs, and their contract
data are not maintained in a single integrated file. As a result, OA is unable
to identify the universe of all OA contracts and their corresponding contract
values.

Requests for goods and services are initiated when a requesting office
submits a requisition to OA. Team leaders from the contracting branches
review the requisitions for content and complexity and subsequently, assign
the requisitions to the appropriate contract specialist. The contract specialist
processes requisitions, solicitations and contracts that are awarded by the
contracting officers. OA also uses support contractors to conduct its
functions. Goods and services are procured through competitive and non-
competitive orders and contracts, purchase cards, and via interagency
agreements. OA uses the General Services Administration Contracts and
Schedules, and the Federal Business Opportunities website to compete its

OA Procurement and Contract Management Functions             September 25, 2009
Report No. 471
                                       Page 3
contracts. OA also has a newly formed Policy, Oversight, and Acquisition
Program branch that is responsible for researching, reviewing and
disseminating procurement and contracting policies and procedures.

OAS and OA have had a high turnover of management personnel in the past
two years. Current management primarily consists of personnel who were
hired within the past two years. All OA branch chiefs, Heads of the
Contracting Activity, and the Senior Procurement Executive are certified at
the FAC-C level III, or Department of Defense equivalent. OAS and OA
management have indicated to us that they are focused on making the
necessary organizational changes that are needed to ensure that their
personnel are complying with the FAR and SEC regulations.

In August 2008, the Office of Inspector General (OIG) contracted Regis &
Associates, PC (Regis), an Independent Public Accountant, to perform a
preliminary survey of OA’s procurement and contract management functions.
The risks identified in the preliminary survey stemmed from OA’s lack of
comprehensive operational procedures that were needed to manage its
procurement and acquisition operations, address inconsistent operational
processes, and properly train all personnel that are involved in the
procurement function.      The preliminary survey also found that the
procurement and contracting functions within OA were driven by a manual
system in which the three contracting officers maintained different Microsoft
Word and Excel spreadsheets to document their respective procurement and
contracting workload. Based on the issues identified in the preliminary
survey, the OIG contracted with Regis to conduct this follow-up audit of the
Commission’s procurement and contracting processes and functions.

Overview of Regional Offices’ Procurement Activities

The Commission’s Regional Offices acquire goods and services from outside
vendors to support their operations and to help carry out the SEC’s mission.
This is accomplished either through purchases that are made by authorized
government purchase cardholders or through the issuance of legally binding
contractual documents. OAS has delegated select senior personnel officials
(i.e., Regional Directors, select Associate Regional Directors, and select legal
counsels) in the Regional Offices with the authority to enter into, and modify
contracts with vendors on behalf of the Commission. These officials have
been delegated the express written contracting authority in the form of
warrants up to $100,000, to procure services limited to expert witnesses,
foreign counsel depositions, and transcript services for Enforcement. In
December 2008, warrants granted to select personnel in the Regional Offices
were revised to include litigation support of up to $100,000. All other

OA Procurement and Contract Management Functions             September 25, 2009
Report No. 471
                                       Page 4
Regional Office requirements are procured by OA personnel. The Regional
Offices also have the authority to award and administer purchases that are
under the $3,000 micro-purchase threshold through its designated
government purchase cardholders.

To better understand the Regional Offices’ procurement functions, we
developed a questionnaire (survey) that was designed to determine the level
of involvement of select personnel in the SEC’s Regional Offices who conduct
procurement and contracting activities. The purpose of the survey was to
identify information regarding:

   •   Personnel who performed the procurement and contracting functions;
   •   Personnel who have warrant authority and/or assist with procurement
       and contracting matters;
   •   The volume of procurements in total number and dollar amounts;
   •   Training that is received by personnel who perform procurement
       functions;
   •   OA oversight of the Regional Office’s procurement activities; and
   •   Challenges encountered with procurement and contracting matters.

The survey was issued to the SEC’s Regional Offices on December 19, 2008
and responses were received through January 19, 2009. The survey was
completed by personnel who either had oversight of the procurement and
contracting function, or who supervised personnel who performed these
functions such as Regional Directors, Associate Regional Directors,
administrative officers, supervisory program support specialists, and others
who were involved in procurement activities.

In addition to issuing the survey, we interviewed personnel from the Regional
Offices regarding their compliance with the FAR and SEC regulations and
regarding the performance of their procurement and contracting (acquisition)
duties. The survey revealed significant risk areas which, if not addressed,
could hinder OA’s overall procurement and contracting function.


Objectives
This audit was conducted in accordance with the SEC/OIG’s annual audit
plan, and its objectives were to:

   1) Identify the population of contracts and other procurement vehicles
      administered by OAS during fiscal year (FY) 2007 and FY 2008;


OA Procurement and Contract Management Functions          September 25, 2009
Report No. 471
                                       Page 5
   2) Determine if cost-reimbursable type contracts have been properly
      closed in accordance with the FAR and if the costs were allowable,
      allocable, and reasonable; and

   3) Determine if procurement activities in the Regional Offices are
      effectively managed and whether individuals performing procurement
      activities are properly trained in accordance with Office of
      Management and Budget requirements.




OA Procurement and Contract Management Functions       September 25, 2009
Report No. 471
                                       Page 6
          Findings and Recommendations

Finding 1: OA Does Not Maintain Accurate
Records and Data on its Procurement and
Contracting Activities
We requested a list of open and closed contracts from OA and the Office of
Financial Management (OFM) to verify the universe of all SEC contracts.1
OA provided us with a consolidated spreadsheet which consisted of its open
contracts that were developed based on data maintained and tracked by three
different contracting officers/branch chiefs. We found that these three
contracting officers maintained the contracts under their purview differently.
Our review of the consolidated spreadsheet further found that 14 of 50 data
fields on the spreadsheet were blank. The contracting officers’ spreadsheets
are the main instruments that OA uses to track its procurement and
contracting data for the SEC’s Headquarters Offices/Divisions and select
Regional Offices. Yet, OA does not have policies or standard operating
procedures to identify the acquisition data that should be tracked and how its
contracting officers should maintain contracting data.

Additionally, we found that OA’s consolidated spreadsheet could not be
reconciled with OFM’s records. We compared the contract values from the
consolidated spreadsheet to OFM’s active contract listings and found
approximately $13,050,843 2 in contracts that were not identified on the
consolidated spreadsheet. OA’s open contracts only consisted of blanket
purchase agreements, interagency agreements, indefinite delivery contracts,
and purchase orders. OA did not have a consolidated record of active,
pending, completed, modified, or cancelled contracts. We further found that
some contracts that OA classified as closed were listed as open on OFM’s
contract list. Thus, we were unable to accurately identify the universe of the
SEC’s contracts and the corresponding contract values. We note that OA was
also unable to accurately identify this universe.

Furthermore, we found that OA was unable to provide requested data on
contracting activities that originated from the Regional Offices. We
determined that OA does not appropriately monitor all Regional Office

1
  When OA discontinued using the Strategic Acquisition Manager (SAM), which was OA’s
automated procurement system (APS) in March 2008, its contracting officers reverted back to
maintaining their respective procurement and contracting (acquisition) data manually.
2
  These values were estimated from OFM’s payment records of current contract activities.
OA Procurement and Contract Management Functions                           September 25, 2009
Report No. 471
                                           Page 7
contracting activities. We further discovered that the Regional Offices were
not required to submit monthly, quarterly, or annual reports on contract
activities to OA personnel, nor do they remit files to OA on contracts that
have been executed.

Pursuant to the OMB Circular A-123, Management’s Responsibility for
Internal Control:

       Management has a fundamental responsibility to develop and
       maintain effective internal control. The proper stewardship of
       Federal resources is a fundamental responsibility of agency
       managers and staff. Federal employees must ensure that
       government resources are used efficiently and effectively to
       achieve intended program results. Resources must be used
       consistent with agency mission, in compliance with laws and
       regulations, and with minimal potential for waste, fraud, and
       mismanagement.

        . . . . Internal Control -- organization, policies, and procedures
       – are tools to help program and financial managers achieve
       results and safeguard the integrity of their programs.

Implicit in these requirements are the need to maintain records on critical
contract data. The aforementioned failures to maintain accurate records and
data resulted from OA not having established sufficient processes and
monitoring methods to ensure compliance with all established federal
requirements and the Commission’s acquisition policies and procedures.

OA used Strategic Acquisition Manager (SAM) as its pilot automated
procurement system (APS) from May 2007 to March 2008 to track its
acquisition activities. OA later cancelled SAM as a result of the system’s
failure to meet their needs, and the vendor’s failure to provide trained system
administers who could fix the system’s problems. Also, OA encountered
problems with interfacing SAM to Momentum, the Commission's financial
accounting system. Momentum tracks the agency's budget, obligations,
expenditures and balances.        When OA’s use of SAM was officially
discontinued, the office did not establish record-keeping procedures or
standard operating procedures for the manual oversight of its procurement
and contracting data. This has contributed to OA’s inability to identify the
universe of the contracts it oversees. OA’s lack of record-keeping procedures
and its failure to establish a comprehensive manual audit trail and
standardized process to track and monitor procurement and contracting
activities has resulted in incomplete and inaccurate contracting records. The

OA Procurement and Contract Management Functions               September 25, 2009
Report No. 471
                                       Page 8
failure to accurately maintain records on all contract processes increases the
risk of inaccurate reporting to internal and external stakeholders such as the
SEC Chairman, Congress, and OMB.

       Recommendation 1:

       The Office of Acquisitions should develop record-keeping standard
       operating procedures to track procurement and contracting
       (acquisition) activities.

       Recommendation 2:

       The Office of Acquisitions should develop a periodic internal review
       process to ensure that the newly developed recordkeeping standards
       are followed.

       Recommendation 3:

       The Office of Acquisitions should determine the universe of active and
       open contracts and the corresponding value of the contracts. Once this
       is accomplished, the Office of Acquisitions should reconcile the
       universe of active and open contracts with the Office of Financial
       Management’s active contract list.



Finding 2: Contracting Data Reported in the
Federal Procurement Data System is not
Accurate
The Office of Federal Procurement Policy (OFPP) Act of 1974 required the
Administrator of OFPP within OMB to establish a system for collecting and
developing information about federal procurement contracts. Accordingly,
the Federal Procurement Data System (FPDS) was implemented in 1978.
The Congress, Government Accountability Office (GAO), executive branch
agencies and the public rely on FPDS data for information on agencies’
contracting actions, government-wide procurement trends, and for the
achievement of small business goals. We requested and obtained a list of
contract activities that OA reported in the FPDS during FY’s 2007 to 2008,
and we further requested and received OFM’s procurement activities
covering the same period of time.



OA Procurement and Contract Management Functions           September 25, 2009
Report No. 471
                                       Page 9
Pursuant to FAR Subpart 4.606(a), Actions Required to be Reported to
FPDS: 3

        . . . . at a minimum, agencies must report contract actions
       over the micro-purchase threshold, regardless of the
       solicitation process used, and agencies must report any
       modification to these contract actions that change previously
       reported contract action data, regardless of dollar value.

We determined that the data OA reported in the FPDS was incomplete and
inaccurate when it was compared to OFM’s procurement and contracting
activities, because the data reported to FPDS did not include all of the SEC’s
procurement activities, such as modifications. In addition, the contracting
activities OA reported in the FPDS for procurement contracts included
activities for Headquarters, but not for the Regional Offices. These occurred
because OA had not established sufficient processes and procedures to ensure
its compliance with procurement and contracting data reporting
requirements. Based on the survey issued to select personnel in the Regional
Office, and the interviews we conducted, we found that a significant number
of personnel did not understand all their job functions and did not know how
to use the FPDS. Also, based on the survey results and interviews, some SEC
personnel indicated that they did not have the required training and
understanding to input data into the FPDS.

OA’s failure to maintain concise contract records increases its risk of
inaccurate reporting to the SEC Chairman, Congress and OMB. When
accurate data and other needed contract information are not properly
maintained, there is also an increased risk of noncompliance with governing
regulations and not properly accounting for federal resources.

       Recommendation 4:

       The Office of Administrative Services should develop an internal
       process to ensure procurement data is accurately and fully reported in
       the Federal Procurement Data System for both the Commission’s
       Headquarters Offices and Divisions and the Regional Offices.




3
 FAR Subpart 4.606(a), Actions Required to be Reported to FPDS.
OA Procurement and Contract Management Functions                  September 25, 2009
Report No. 471
                                        Page 10
Finding 3: OA Does Not Adequately Oversee
and Monitor Regional Offices’ Contract
Activities and Training of Personnel
OA’s acquisition workforce is comprised of personnel in the GS-1102 series,
Contracting Officers, Contracting Officer Technical Representatives (COTR),
and Project/Program Managers. Pursuant to Securities and Exchange
Commission Regulation (SECR) 10-15, Contract Administration Positions,
and Office of Federal Procurement Policy, all designated personnel are
required to take federal acquisition or SEC acquisition training to obtain and
retain their procurement and contract oversight responsibilities. 4 However,
we found that personnel in the Regional Offices who are assigned to execute
and manage procurement and contract activities and the Point-of-Contact
personnel who monitor procurement activities, were not required, and for the
most part, have not taken any federal acquisition or SEC acquisition training
courses. We also determined that OA did not:

    •   Maintain data on procurement and contracting activities that were
        executed by the Regional Offices;
    •   Oversee and monitor the Regional Offices procurement and
        contracting activities;
    •   Ensure the competency of employees performing contracting and
        procurement activities at the Regional Offices; and
    •   Ensure that Regional Office procurement data was entered into FPDS.

The OIG survey included questions that pertained to the level of training
that has been provided to personnel who participate in procurement and
contracting activities. The results of the survey showed that Regional
officials who were delegated key aspects of contract administration lacked the
adequate training and experience needed to successfully perform their
contracting duties.

Furthermore, we found that OA does not adequately monitor the Regional
Offices. The OIG survey found that OA granted 16 personnel in the Regional
Offices (Regional Office Directors and select Associate Regional Directors and
legal counsels) limited warrant authority up to $100,000, to enter into
contracts for the Enforcement. However, OA did not establish a review or
monitoring process for which its contracting officers would have oversight or
knowledge of the contracts that these select Regional Office personnel

4
 OA designates Inspection and Acceptance Officials for the SEC’s Offices/Divisions that do not
have COTRs.
OA Procurement and Contract Management Functions                         September 25, 2009
Report No. 471
                                           Page 11
execute. Also, these personnel were not required to submit monthly,
quarterly, or even annual reports on contract activities to OA. Further, OA
did not require Regional Offices to remit files to OAS on the contracts that
were executed. Moreover, we found that some Regional Office Directors and
Associate Regional Directors were unfamiliar with and not in compliance
with applicable federal and SEC regulations. In discussions with these
individuals, we learned that they appear to follow a “whatever it takes to get
the job done” approach, yet, some did not fully understand and have not
implemented all the FAR regulation requirements.

We conducted follow-up interviews with personnel from six Regional Offices,
based on their responses to the OIG survey. The Regional Office personnel
expressed the following issues and concerns regarding their procurement
activities:

   •   Contracting officers from OA should visit the Regional Offices to gain
       an understanding of “what goes on here.” This would give the
       contracting officers a better understanding of the Regional Offices’
       needs.
   •   The SEC procurement and FAR regulations language is too difficult for
       them to understand.
   •   Personnel performing contracting and procurement functions wore
       “many hats” and were not dedicated primarily to contracting functions.
   •   Training in the procurement functions was needed for personnel who
       issue various types of contracts, and those who use the purchase card.

Based on the results of interviews with the personnel involved in
procurement activities at the Regional Offices, we found that many personnel
received little or no formal procurement or contracting training related to
their procurement responsibilities, other than a three-day Introductory
Contracting course that OA implemented in May 2007.

We also found that OIG Report No. 430, Contract Ratifications, issued
September 2007, included findings and recommendations that were related to
procurement activities at the SEC’s Regional Offices that remained
unresolved. The findings included a recommendation that the Commission
implement additional management controls to help preclude unauthorized
commitments, update policies such as SECR 10-2, Contracting Authorities
and Appointments, and put operating procedures in-place to help ensure
compliance with issued policy. This OIG report also found that Regional
Office staff with contracting authority and the administrative staff, who
prepare procurement actions, did not possess the required skills to perform
their procurement responsibilities successfully.

OA Procurement and Contract Management Functions           September 25, 2009
Report No. 471
                                      Page 12
According to the SECR 10-2, SEC Contracting Authorities and Appointments:

       The Senior Procurement Executive (SPE) shall establish
       acquisition policy; monitor the overall effectiveness and
       efficiency of the contracting functions; and establish
       controls to assure compliance with laws, regulations, and
       procedures. The duties of the SPE are described in FAR
       2.101.    This function is delegated to the Associate
       Executive Director, OAS.

Pursuant to Revised OMB Circular A-123: Management’s Responsibility For
Internal Control, (December 2004), for Control Environments:

       . . . . within the organizational structure, management
       must clearly: define areas of authority and responsibility;
       appropriately delegate the authority and responsibility
       throughout the agency; establish a suitable hierarchy for
       reporting; support appropriate human capital policies for
       hiring, training, evaluating, counseling, advancing,
       compensating and disciplining personnel; and uphold the
       need for personnel to possess and maintain the proper
       knowledge and skills to perform their assigned duties as
       well as understand the importance of maintaining
       effective internal control within the organization.

In addition, OFPP Letter 05-01, Developing and Managing the Acquisition
Workforce (April 2005), provides that the agency’s Chief Acquisition Officer or
equivalent:

        . . . . is responsible for assessing the current skills
       inventory of the workforce, identifying short- and long-
       term agency needs, and establishing plans, including
       recruitment and retention strategies, for obtaining the
       acquisition workforce resources and skills required to
       meet future agency mission needs.

The deficiencies described above occurred as a result of OA’s inadequate
internal controls over the procurement and contract management functions,
and its lack of adequate monitoring for procurement and contracting
activities at the Regional Offices. When the OIG discussed these concerns
with OAS’ management, OAS agreed that OA inadequately monitored and
lacked control over the procurement and contracting activities at the
Regional Offices. OAS explained that the lack of monitoring and control
OA Procurement and Contract Management Functions            September 25, 2009
Report No. 471
                                      Page 13
occurred because of the decentralization that was implemented by the
Commission to expedite the acquisition needs of the Regional Offices. OAS
officials stated that they were willing to exert control and provide oversight
responsibility over the Regional Offices’ procurement and contracting
functions in the future. We found that OAS officials have started to conduct
Regional Office site visits to familiarize its staff with the Regional Offices’
contract and procurement activities.

As discussed in detail in Finding 1 above, we also determined that OAS did
not report all the SEC’s procurement and contracting data in the FPDS and
did not ensure that only Regional Office personnel who had the requisite
acquisition and procurement training performed the Regional Office’s
contract administration functions.        For example, Contracting Officer
Technical Representatives, Project/Program Managers, and non-GS 1102
series regional personnel are assigned to execute and manage contract and
procurement activities, but have not received proper acquisition training.
Thus, these failures increase the risk of unauthorized and inappropriate
execution of contracts which may violate governing regulations and guidance
provided in the FAR and OMB circulars. OA’s failure to adequately ensure
that all Regional Office personnel who perform procurement and contracting
duties receive required federal acquisition and procurement training and the
lack of an automated contracting function adversely affects OAS’ ability to
accurately report data in the FPDS. This creates a potentially high-risk
environment for fraud, abuse, and the mismanagement of funds.

   Recommendation 5:

   The Office of Administrative Services shall develop an acquisition training
   plan to ensure all Commission headquarters and Regional
   Offices/Divisions acquisition workforce performing procurement and
   contracting duties have requisite acquisition training that complies with
   the applicable Office of Federal Procurement Policy training
   requirements.

   Recommendation 6:

   The Office of Administrative Services must provide oversight over the
   Regional Offices’ procurement activities to ensure the proper use of
   Contracting Officer Technical Representatives, Inspection and Acceptance
   Officials, Point-of-Contact personnel and other personnel that handle
   procurement and contracting activities; acquisition controls are in-place
   for all contracting and procurement activities; and appropriate data is
   reported in the Federal Procurement Data System.

OA Procurement and Contract Management Functions            September 25, 2009
Report No. 471
                                      Page 14
Finding 4: The PRISM Data Migration Plan
is Not Adequate
OA acquired its new automated procurement system (APS), called PRISM in
September 2008. The PRISM contract was competitively awarded to
Compusearch for $2.5 million, to cover a one-year base period and subsequent
years of annual maintenance. PRISM is a web-based, commercial-off-the-
shelf procurement and contract management system that provides a
streamlined end-to-end procurement cycle that integrates and tracks
information from a single point of entry, from initiation of the requirement,
through the solicitation and award, contract administration, to closeout and
document archive. Previously, OA used two different APS’s, the
Procurement Desktop System (PDS) and SAM to track its acquisitions. OA
discontinued its use of PDS in 1998 and acquired SAM in 2007. OA
shutdown SAM in March 2008 for a variety of reasons, including poor
performance and the inability of the vendor to provide qualified support staff
who were needed to supplement the on-site help desk. To date, we found that
OA has spent approximately $5 million for PDS and SAM and neither system
has fully met OA’s needs. The costs from the cancellation of SAM alone
amounted to nearly $2.5 million.

To avoid repeating the mistakes that were made with the previous failed
APS, OA management informed us that it had selected a vendor for its third
APS with a proven success record within the federal government. OA
officials further informed us that they wanted a product that could be
administered and configured without extensive customization. OA officials
have dedicated a functional expert to manage the PRISM system’s business
configuration design, implementation and testing.

PRISM’s implementation consists of three phases and OA is currently in
phase two. Phase one consisted of collecting paper contract files that are
maintained in OA and matching the data with the information that is in
Momentum, with a cross-check between the paper contract files and contract
information that is in Momentum to ensure that information migrated into
PRISM is accurate. Phase two consists of integrating OA, OHR, OIT, and the
Regional Office’s procurement and contracting data. This integration is
expected to take place in January 2010. The third and final phase will be the
integration of contract information for the Office of the Secretary,
Enforcement, and all other Commission offices and divisions that were not
integrated during phase two.


OA Procurement and Contract Management Functions           September 25, 2009
Report No. 471
                                      Page 15
We found that the purpose of the implementation plan was to fully migrate
OA’s current acquisition activities into PRISM. After SAM was deactivated,
however, OA’s contracting officers reverted back to using a manual system to
track and document its procurement and contracting activities. As discussed
in Finding 1, OA has three contracting officers that maintained different
Word and Excel spreadsheets to track and document the contracts for which
they have oversight. Moreover, because of a lack of standard operating
procedures, there is no uniformity in the manner in which the contracting
officers maintained their acquisition information and no audit trail.
Therefore, the data contained in SAM is not current, and only represents a
partial snapshot of OA’s procurement activity as of March 2008. Also,
because only one of OA’s branches and its customers used SAM, it does not
contain all of OA’s procurement actions. Thus, there is an incomplete volume
of data that is available in SAM. Yet, the data is still valuable and must be
utilized. Since OA does not have a centralized repository of acquisition and
contracting information and the universe of contracts could not be
determined in order for OA to identify all its open and closed contracts, the
office must now manually reconstruct the data. In addition, OA should
compare and reconcile the contracting officers’ Word documents and Excel
spreadsheets to the acquisition data in SAM, as well as to the procurement
and contracting-related information that is in Momentum, before inputting
the data into PRISM. Momentum consists of information that can be used to
help validate the data in the contracting officer’s Word and Excel
spreadsheets, before OA fully migrates to PRISM.

We determined that OAS did not have an adequate plan to reconcile the
universe of acquisition information to data that is maintained by the
contracting officers, and the various systems such as SAM and Momentum.

We identified the following concerns regarding the migration of data from the
contracting officer’s Word and Excel spreadsheets to PRISM as follows:

   •   There was a lack of complete and accurate contract records (pending,
       current, and closed);
   •   There were no standard procedures or systematic methods for entering
       data into the various Word and Excel spreadsheets;
   •   Contracts that OA management represented as closed were classified
       by OFM as open and current in Momentum;
   •   OFM deobligated funds on contracts in Momentum for year-end
       financial statement preparation purposes without notice from OA that
       the contracts were completed and that additional excess funds were
       available for deobligation;


OA Procurement and Contract Management Functions          September 25, 2009
Report No. 471
                                      Page 16
    •   There was no tracking system in-place to ensure the completeness of
        the contract population; and
    •   Contract files were not securely retained.

According to the FAR 4.801, General: 5

        (a) The head of each office performing contracting, contract
        administration, or paying functions shall establish files containing the
        records of all contractual actions.

        (b) The documentation in the files shall be sufficient to constitute a
        complete history of the transaction for the purpose of-
              (1) Providing a complete background as a basis for informed
                  decisions at each step in the acquisition process;
              (2) Supporting actions taken;
              (3) Providing information for reviews and investigations; and
              (4) Furnishing essential facts in the event of litigation or
                  congressional inquiries.

When accurate contract data and other necessary contract information are
not maintained, there is an increased risk of non-compliance with governing
regulations, and improperly accounting for federal resources.

These weaknesses resulted due to OAS’s failure to establish adequate
internal controls to provide for the proper administration and oversight of its
procurement and contract management functions. Specifically, OAS has not
established sufficient policies, processes, and monitoring procedures to
ensure compliance with established federal and Commission acquisition
regulations and guidance.

    Recommendation 7:

    The Office of Acquisitions should revise and finalize its data migration
    plan and include key controls or steps that will ensure that all data
    migrated into PRISM is accurate and complete and has been reconciled or
    compared at a minimum to the contracting officer’s Word and Excel
    spreadsheets, and to the data that is in SAM and Momentum.




5
 FAR 4.801.
OA Procurement and Contract Management Functions             September 25, 2009
Report No. 471
                                      Page 17
Finding 5: Payments on Time-and-Materials
and Labor-Hour Contracts are not Adequately
Supported
During our audit, we judgmentally selected 32 open contracts, 24 Firm-Fixed-
Price contracts, 6 Time-and-Materials and 2 Labor-Hour contracts to
determine whether payments on these contracts were properly supported.
OA management provided us with the contractor personnel invoices and the
corresponding timesheets for these contracts, as applicable. We also obtained
the contractor’s resumes and other necessary supporting documentation. We
found that for all 8 Time-and-Materials and Labor-Hour contracts we
reviewed, the contractors did not provide any timesheets to support their
invoices, yet the COTRs assigned to the contracts approved the invoices for
payment. In only three of the 6 Time-and-Materials contracts, did the
contractors even provide a summary of hours that were charged to the
contracts by its employees and consultants.

Pursuant to FAR 52.232-7, Payments under Time-and-Materials and Labor-
Hour Contracts, “the government will pay the contractor as follows, upon the
submission of vouchers approved by the contracting officer or the authorized
representative:” 6

       •   The hourly labor rates shall be paid for all labor
           performed on the contract that meets the labor
           qualifications specified in the contract.

       •   Labor hours incurred to perform tasks for which labor
           qualifications were specified in the contract will not be
           paid to the extent the work is performed by employees
           that do not meet the qualifications specified in the
           contract, unless specifically authorized by the contracting
           officer.

       •   Subcontracts for supplies and incidental services, for
           which there is not a labor category specified in the
           contract, will be paid at cost.

       •   Intercompany labor rates shall not include profit for the
           transferring division (except for commercial items as
           described in FAR 16.601(c)(2) summarized above),

6
 FAR 52.232-7, Payments under Time-and-Materials and Labor-Hour Contracts.
OA Procurement and Contract Management Functions                   September 25, 2009
Report No. 471
                                       Page 18
           subsidiary or affiliate (the prime contractor, however,
           may include profit).

       •   Payment for materials is subject to the Allowable Cost
           and Payment clause. The contracting officer will
           determine allowable costs of materials in accordance with
           Subpart 31.2 of the FAR in effect on the date of the
           contract.

The FAR 52.232-7 7 further states that the Contractor shall substantiate
vouchers (including any subcontractor hours reimbursed at the hourly rate in
the schedule) by evidence of actual payment and by:

       •   Individual daily job timekeeping records;
       •   Records that verify the employees meet the qualifications for the
           labor categories specified in the contract; or
       •   Other substantiation approved by the contracting officer.

The conditions noted above were the result of COTRs, Inspection and
Acceptance Officials, and the Point-of-Contacts not having a full
understanding of the FAR requirements as related to the documentation that
is needed to support payments for Time-and-Material and Labor-Hour
contracts. These deficiencies also occurred because the FAR requirements for
payment were not being adequately communicated to the COTRs on how to
approve payment for these types of contracts. We determined that OA did
not comply with the FAR requirement to maintain adequate documentation
to support its payments for Time-and-Materials and Labor-Hour contracts.
This increases its risk that improper payments may be made to contractors.

    Recommendation 8:

    The Office of Acquisitions should re-educate the acquisition workforce on
    the Federal Acquisition Regulation requirements related to Time-and-
    Materials and Labor-Hour contracts by specifically addressing proper
    documentation to support invoice payments. This could be accomplished
    by issuing a Securities and Exchange Commission Administrative Notice.




7
 Ibid.
OA Procurement and Contract Management Functions             September 25, 2009
Report No. 471
                                      Page 19
Finding 6: Contract Close-out Procedures
Were not Conducted in Compliance with SEC
and FAR Regulations
OA has only officially started to close-out its completed (closed) contracts in
the last two years. Contract close-out should be a continual effort to ensure
that contract files are administered in accordance with the FAR. Contract
close-out is a critical process in the life of the contract. OAS is required by
FAR 4.804-5, Procedures for Closing Out Contract Files; 8 and FAR
4.805, Storage, Handling, And Disposal of Contract Files 9 to establish
procedures for closing, storing, and disposing of contracts. During our audit,
we noted that the close-out procedures OA used were not in compliance with
these FAR provisions.

We judgmentally selected 25 closed contracts from a closed contract list that
OA provided to us covering FYs 2006 to 2007. We reviewed the closed
contract files to determine whether they contained the documentation that
was required by the FAR, such as the contract, property clearance, interim or
disallowed costs settlement, completed price revision, subcontractors’
payments evidence, finalization of indirect cost rates, completed contract
audit evidence, contractors’ closing statements, contractors’ final invoices,
and evidence that contract funds were reviewed and excess funds were
deobligated. In addition, we examined correspondence between the
contracting officers and other parties to determine whether modifications to
the contracts or other actions were properly executed and supported.

None of the 25 contracts that we reviewed complied with the FAR provisions
as described above. Some of the issues we identified during our review of the
closed contract files were as follows:
    (a) OA personnel were unable to locate all the requested closed contract
        files;
    (b) E-mails or documentation to evidence that contracts had been closed
        were not be kept in the active contract files;
    (c) Close-out dates, per OA’s close-out logs, were not completed;
    (d) There was no evidence of contractor closing statements in the files;
    (e) Files were missing copies of Form SECR 2414, Contract Completion
        Statement.




8
 FAR 4.804-5, Procedures for Closing Out Contract Files.
9
 FAR 4.805, Storage, Handling, and Disposal of Contract Files.
OA Procurement and Contract Management Functions                 September 25, 2009
Report No. 471
                                          Page 20
Also, there was no evidence that assigned personnel in the SEC’s
Offices/Divisions (program offices) who were responsible for monitoring
contracts actually reviewed the contract fund status and notified the proper
office when excess funds should have been deobligated from the contract. We
did not find contract modifications to de-obligate funds on the contracts in the
contract closeout files.

The SECR 10-14, Procurement Contract Administration, April 2005, (SECR
10-14) provides for close-out procedures that are applicable to all SEC
contracts, including acquisitions placed under the Economy Act (31 U.S.C.
1535). Though SECR 10-14 consists of three forms (SEC 2350, Contractors'
Performance Evaluation; SEC 2414, Contract Completion Statement; and
SEC 2415, Contract Closeout Checklist) that must be completed as a part of
the contract administration close-out process, none of the forms were
completed in any of the 25 contract files that we reviewed. The contracting
officers indicated that this occurred because the SEC forms were outdated
and of no use.

Pursuant to the SECR 10-14, the close-out process “requires coordination
among the Procurement and Contracting Branch, OAS, Comptroller,
contractor, and the program office.” Implicit in this requirement is the need
to ensure that the close-out process is completed by an individual with the
requisite acquisition knowledge and experience. The FAR Subpart 4.8—
Government Contract Files, 4.804-5, Procedures for Closing-Out Contract
Files, 10 provides as follows:

     (a) The contract administration office is responsible for
     initiating (automated or manual) administrative closeout of
     the contract after receiving evidence of its physical completion.
     At the outset of this process, the contract administration office
     must review the contract funds status and notify the
     contracting office of any excess funds the contract
     administration office might deobligate. When complete, the
     administrative closeout procedures must ensure that:

               1) Disposition of classified material is completed;
               2) Final patent report is cleared;
               3) Final royalty report is cleared;
               4) There is no outstanding value engineering
                  change proposal;
               5) Plant clearance report is received;

10
  FAR Subpart 4.8—Government Contract Files, 4.804-5, Procedures for Closing-Out Contract
Files.
OA Procurement and Contract Management Functions                      September 25, 2009
Report No. 471
                                        Page 21
               6)  Property clearance is received;
               7)  All interim or disallowed costs are settled;
               8)  Price revision is completed;
               9)  Subcontracts are settled by the prime
                   contractor;
               10) Prior year indirect cost rates are settled;
               11) Termination docket is completed;
               12) Contract audit is completed;
               13) Contractor’s closing statement is completed;
               14) Contractor’s final invoice has been submitted;
                   and
               15) Contract funds review is completed and excess
                   funds deobligated.

Also, the FAR 4.805, Storage, Handling, And Disposal of Contract Files 11 ,
provides that:

       (a) Agencies must prescribe procedures for the handling,
       storing, and disposing of contract files. These procedures
       must take into account documents held in all types of
       media, including microfilm and various electronic media.

We determined that the deficiencies associated with the files as outlined
above occurred as the result of OA’s inadequate internal controls over the
procurement contract administration process. Specifically, OA does not have
a process in place that identifies contract close-out procedures, contracts that
should be closed, when close-out should commence, and documentation that
should be maintained as evidence to properly close contracts in accordance
with FAR and Commission requirements. As a result, there is an increased
risk that the Commission’s contracts are not being properly closed.
When these conditions were discussed with OA, management indicated that
they would develop a formal process for identifying contracts for close-out.
This included identifying contracts that should be closed-out, and providing
separate secured storage for these contracts. Management also informed us
that they would arrange for trained personnel to be assigned the
responsibility for contract close-out.

       Recommendation 9:

       The Office of Acquisitions should update the SECR 10-14, Procurement
       Contract Administration, regarding contract close-out and ensure that


11
 FAR 4.805, Storage, Handling, And Disposal of Contract Files.
OA Procurement and Contract Management Functions                 September 25, 2009
Report No. 471
                                          Page 22
       it properly aligns with the Federal Acquisition Regulation regarding
       proper contract close-out procedures.

       Recommendation 10:

       The Office of Acquisitions should develop an internal review process
       and checklist to further ensure compliance with the Federal
       Acquisition Regulation contract closeout procedures.




OA Procurement and Contract Management Functions         September 25, 2009
Report No. 471
                                      Page 23
                                                                    Appendix I

                  Acronyms and Abbreviations

APS                         Automated Procurement System
COTR                        Contracting Officer’s Technical Representative
Enforcement                 Division of Enforcement
FAR                         Federal Acquisition Regulation
FPDS                        Federal Procurement Data System
FY                          Fiscal Year
OA                          Office of Acquisitions
OAS                         Office of Administrative Services
OFM                         Office of Financial Management
OFPP                        Office of Federal Procurement Policy
OIG                         Office of Inspector General
OIT                         Office of Information Technology
OMB                         Office of Management and Budget
PDS                         Procurement Desktop System
SAM                         Strategic Acquisition Manager
SEC or Commission           Securities and Exchange Commission
SECR                        Securities Exchange Commission Regulation
SPE                         Senior Procurement Executive




OA Procurement and Contract Management Functions             September 25, 2009
Report No. 471
                                      Page 24
                                                                    Appendix II


                      Scope and Methodology

This audit was conducted in accordance with the Generally Accepted
Government Auditing Standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions, based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions, based on our audit objectives.

Scope. Regis conducted the audit from January 12 through February 17,
2009, using procedures approved by the OIG. From July through August
2009 we performed follow-up procedures to ensure that our work was still
valid.   The scope of the audit and our professional services consisted of
reviewing OAS’ activities covering a three to five year audit cycle. We
identified all contract types (e.g., labor-hour vs. fixed-price, cost-based, sole
source) that the Commission uses. We also reviewed cost reimbursable, time
and material, and labor hour type contracts to determine whether they are
being properly closed-out in accordance with FAR, and whether the costs
claimed are allowable, allocable and reasonable, in accordance with the terms
of the contract and FAR. Furthermore, we reviewed OAS’ PRISM migration
and the implementation phases. In addition, we reviewed OAS’ policies,
operating procedures, and SEC Regulations related to procurement and
contract administration and management.

Methodology. The methodology was designed by using a risk-based
approach. The audit consisted of several processes including reviewing
policies and procedures governing the procurement and contracting processes
and functions; conducting interviews and walk-through procedures with
appropriate OAS personnel to document our understanding, observing actual
processes; and conducting detailed reviews of selected contract files.

To address the first audit objective we identified the population of contracts
and other procurement vehicles administered by OAS during FY 2007 to FY
2008. We also obtained a list of open contracts from OA and OFM. OA
provided two lists of open contracts; a list from the FPDS system and another
list from OA personnel consisting of the Contracting Officer’s Word and Excel
spreadsheets. The list from OFM is generated from Momentum. We
judgmentally selected 32 open contracts and requested that OA provide us
with contract files. The sample consisted of Firm Fixed Price, Time-and
Material, and Labor-Hour-contracts.
OA Procurement and Contract Management Functions             September 25, 2009
Report No. 471
                                      Page 25
Specifically, we reviewed each file to determine whether the costs claimed
were allowable, allocable, and reasonable in accordance with the terms of the
contract and FAR. We verified that the contents required to be included in
the contract folders, according to FAR, were present. Furthermore, we
reviewed the original contract document and noted the contract value and
ensured that all pertinent documents were available within the file.

In addition, for firm fixed price contracts, we reviewed the contract files to
determine the ceiling costs and any price adjustments. If a contract was used
on commercial items or supplies and services, we also reviewed
documentation to determine if there was adequate competition. We also
reviewed each Time-and-Materials and Labor-Hour contracts, and performed
the following:

   •   Obtained, reviewed, and agreed total payments under each contract to
       amounts authorized, and obtained explanations from OAS on
       identified differences.
   •   Obtained copies of paid contractor invoices and determine whether
       payments were in accordance with the terms of the contracts. We
       accomplished this by reviewing such items as billed hourly rates, hours
       recorded on timesheets, labor categories, and billing periods.

To address the second audit objective, which was to determine whether cost
reimbursable type contracts were properly closed in accordance with the FAR
and costs were allowable, allocable, and reasonable, we selected and reviewed
25 closed contracts to determine whether SEC followed close-out procedures
in accordance with FAR and SEC policies.

To address the third audit objective, which was to determine whether
procurement activities in the Regional Offices were effectively managed and
individuals performing procurement activities were properly trained in
accordance with OMB requirements, we developed and sent a survey
questionnaire about procurement functions, processes, activities, oversight,
and reporting to the Regional Office staff. We reviewed the results of the
survey to develop a general consensus of the Regional Offices’ operations. We
selected and followed-up with six of the Regional Offices on their responses to
the survey questionnaire.

We obtained organizational charts identifying the various SEC officials who
were responsible for functions within the OA and identified the personnel we
would interview. We further reviewed the policies and procedures that
govern the procurement and contracting management functions, conducted

OA Procurement and Contract Management Functions            September 25, 2009
Report No. 471
                                      Page 26
interviews and walkthroughs to document our understanding of how
purchase requisitions and solicitations are managed. Also, we reviewed the
receipt and evaluation of contract offers and quotes.          We reviewed
documentation pertaining to the preparation, administration, and close-out of
awards. We also obtained and reviewed sample contracts for compliance with
the FAR and SEC’s regulations and policies. We developed a survey to
determine the level of involvement of select personnel in the SEC’s Regional
Offices who perform its procurement and contracting activities. The survey
was issued to Regional Offices’ personnel on December 19, 2008, and we
accepted responses to the survey through January 19, 2009. Also, we
interviewed personnel from the Regional Offices for compliance with FAR
and SEC regulations and policies regarding the performance of their
procurement functions. Finally, we examined whether procurement activities
in the Regional Offices were effectively managed and are properly trained in
accordance with OMB’s requirements.

Internal Controls. We reviewed the internal controls that were considered
significant within the context of the audit objectives. To evaluate control
activities we obtained and reviewed applicable information from governing
regulations and guidelines such as the FAR, OMB circulars and guidelines,
SECR’s issued by the Commission, and the Office of Federal Procurement
guidance. We interviewed OA and the Regional Office staff and performed
analyses to test whether staff had adhered to the requirements outlined in
the policies and procedures, rules, regulations, and in other written
documentation. Through interviews with SEC staff we gained an
understanding of the OAS and OA management and supervisory activities
and the internal controls that are currently being used.




OA Procurement and Contract Management Functions          September 25, 2009
Report No. 471
                                      Page 27
                                                                Appendix III


                                    Criteria


FAR Subpart 4.1, 4.600 Scope of Subpart. Prescribes uniform reporting
requirements for the FPDS.

FAR Subpart 4.606(a), Actions required to be reported to FPDS.
Prescribes the policies and procedures relating to the administrative aspects
of contract execution, contractor-submitted paper documents, distribution,
reporting, retention, and files.

FAR 4.801, General.        Prescribes the requirements for establishing,
maintaining, and disposing of contract files.

FAR 4.804-4, Physically Completed Contracts. Describes when a
contract is considered to be physically completed.

FAR 4.805, Storage, Handling, and Disposal of Contract Files.
Identifies when and how agencies must prescribe procedures for the
handling, storing, and disposing of contract files.

FAR 52.232-7 Payments Under Time and Materials and Labor Hour
Contracts. Describes how the Government will pay the Contractor upon the
submission of vouchers approved by the Contracting Officer or the authorized
representative.

Office of Federal Procurement Policy Letter 05-01, Developing and
Managing the Acquisition Workforce. Requires the Federal Acquisition
Institute and Chief Acquisition Officer’s Council to approve a program that
standardized the education, training, and experience requirements for
contracting professionals in an effort to improve workforce competencies.

OMB Circular A-123, Management’s Responsibility for Internal
Control. Defines management’s responsibility for internal control in Federal
departments and agencies. It also provides the guidelines for conducting
entity level internal control reviews of the acquisition function.


SECR 10-2, Contracting Authorities and Appointments. Establishes
uniform policies and procedures for the acquisition of the SEC’s products and
OA Procurement and Contract Management Functions          September 25, 2009
Report No. 471
                                      Page 28
services. Also, it describes the policies and delegates authority and
accountability for the management of acquisition functions on behalf of the
Chairman.

SECR 10-14, Contract Administration. Establishes the SEC’s contract
closeout program and explains how it functions.




OA Procurement and Contract Management Functions         September 25, 2009
Report No. 471
                                      Page 29
                                                                 Appendix IV


                     List of Recommendations

Recommendation 1:

The Office of Administrative Services should develop record-keeping standard
operating procedures to track procurement and contracting (acquisition)
activities.

Recommendation 2:

The Office of Administrative Services should develop a periodic internal
review process to ensure that the newly developed recordkeeping standards
are followed.

Recommendation 3:

The Office of Administrative Services should determine the universe of active
and open contracts and the corresponding value of the contracts. Once this is
done, the Office of Acquisitions should reconcile the universe of active and
open contracts with the Office of Financial Management’s active contract list.

Recommendation 4:

The Office of Administrative Services should develop an internal process to
ensure procurement data is accurately and fully reported in the Federal
Procurement Data System for both the Commission’s headquarters and the
Regional Offices/Divisions.

Recommendation 5:

The Office of Administrative Services shall develop an acquisition training
plan to ensure all Commission headquarters and Regional Offices/Divisions
acquisition workforce performing procurement and contracting duties have
requisite acquisition training that complies with the applicable Office of
Federal Procurement Policy training requirements.

Recommendation 6:

The Office of Administrative Services shall provide Regional Offices with
oversight including the proper use of Contracting Officer Technical
OA Procurement and Contract Management Functions           September 25, 2009
Report No. 471
                                      Page 30
Representatives, Inspection and Acceptance Officials, Point-of-Contact
personnel and other personnel that handle procurement and contracting
activities and ensure acquisition controls are in-place for all contracting and
procurement activities and appropriate data reporting in the Federal
Procurement Data System.

Recommendation 7:

The Office of Acquisitions should revise and finalize its data migration plan
and include key controls or steps that will ensure that all data migrated into
PRISM is accurate and complete and has been reconciled or compared at a
minimum to the contracting officer’s Word and Excel spreadsheets, and the
data that is in SAM and Momentum.

Recommendation 8:

The Office of Acquisitions should re-educate the acquisition workforce on the
Federal Acquisition Regulation requirements that are related to Time-and-
Materials, and Labor-Hour contracts, by specifically addressing proper
documentation to support invoice payments. This could be accomplished by
issuing a Securities and Exchange Commission Administrative Notice.

Recommendation 9:

The Office of Acquisitions should update the SECR 10-14, Procurement
Contract Administration, regarding contract closeout and ensure that it
properly aligns with the Federal Acquisition Regulation regarding proper
contract closeout procedures.

Recommendation 10:

The Office of Acquisitions should develop an internal review process and
checklist to further ensure compliance with the Federal Acquisition
Regulation contract closeout procedures.




OA Procurement and Contract Management Functions            September 25, 2009
Report No. 471
                                      Page 31
                                                          Appendix V
                      Management Comments




OA Procurement and Contract Management Functions   September 25, 2009
Report No. 471
                                      Page 32
OA Procurement and Contract Management Functions   September 25, 2009
Report No. 471
                                      Page 33
OA Procurement and Contract Management Functions   September 25, 2009
Report No. 471
                                      Page 34
OA Procurement and Contract Management Functions   September 25, 2009
Report No. 471
                                      Page 35
                                                                        Appendix VI

               Office of Inspector General’s
           Response to Management’s Comments
The Office of Inspector General is pleased that the Office of Administrative Services
(OAS) concurred with the report’s 10 recommendations. We believe that OAS’
proposed actions are responsive to our findings and recommendations and are
pleased that OAS has already taken action to implement some of the
recommendations that are identified in our report. Once all of the recommendations
are fully implemented, we believe the Commission’s internal controls over the
procurement and contract management function will be strengthened.




OA Procurement and Contract Management Functions                  September 25, 2009
Report No. 471
                                           36
                       Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Requests/Ideas)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. # 202-551-6061
Fax # 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at Commission,
      contact the Office of Inspector General at:

             Phone: 877.442.0854

             Web-Based Hotline Complaint Form:
             www.reportlineweb.com/sec_oig
